<html>
<title> - HEARING ON THE LEGAL WORKFORCE ACT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                   HEARING ON THE LEGAL WORKFORCE ACT

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    IMMIGRATION AND BORDER SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 4, 2015

                               __________

                           Serial No. 114-11

                               __________

         Printed for the use of the Committee on the Judiciary

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Available via the World Wide Web: http://judiciary.house.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

93-081 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                
      
      
      
      
      
      
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUUL LABRADOR, Idaho                HAKEEM JEFFRIES, New York
BLAKE FARENTHOLD, Texas              DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia                SCOTT PETERS, California
RON DeSANTIS, Florida
MIMI WALTERS, California
KEN BUCK, Colorado
JOHN RATCLIFFE, Texas
DAVE TROTT, Michigan
MIKE BISHOP, Michigan

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

            Subcommittee on Immigration and Border Security

                  TREY GOWDY, South Carolina, Chairman

                  RAUUL LABRADOR, Idaho, Vice-Chairman

LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE KING, Iowa                     LUIS V. GUTIERREZ, Illinois
KEN BUCK, Colorado                   SHEILA JACKSON LEE, Texas
JOHN RATCLIFFE, Texas                PEDRO R. PIERLUISI, Puerto Rico
DAVE TROTT, Michigan

                     George Fishman, Chief Counsel

                      Tom Jawetz, Minority Counsel
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                            C O N T E N T S

                              ----------                              

                            FEBRUARY 4, 2015

                                                                   Page

                           OPENING STATEMENTS

The Honorable Lamar S. Smith, a Representative in Congress from 
  the State of Texas, and Member, Subcommittee on Immigration and 
  Border Security................................................     1
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     3
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     4
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas, and Member, Subcommittee on 
  Immigration and Border Security................................     5

                               WITNESSES

Randel K. Johnson, Senior Vice President, Labor, Immigration and 
  Employee Benefits, U.S. Chamber of Commerce
  Oral Testimony.................................................    13
  Prepared Statement.............................................    15
Jill G. Blitstein, Esq., International Employment Manager, Human 
  Resources, North Carolina State University
  Oral Testimony.................................................    23
  Prepared Statement.............................................    25
Angelo I. Amador, Esq., Senior Vice President & Regulatory 
  Counsel, National Restaurant Association
  Oral Testimony.................................................    30
  Prepared Statement.............................................    32
Charles F. Conner, President and CEO, National Council of Farmer 
  Cooperatives
  Oral Testimony.................................................    43
  Prepared Statement.............................................    45

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Trey Gowdy, a Representative 
  in Congress from the State of South Carolina, and Chairman, 
  Subcommittee on Immigration and Border Security................     8
Material submitted by the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Subcommittee on Immigration and Border Security................    55
Material submitted by the Honorable Pedro R. Pierlusi, a 
  Representative in Congress from Puerto Rico, and Member, 
  Subcommittee on Immigration and Border Security................    63
Material submitted by the Honorable Trey Gowdy, a Representative 
  in Congress from the State of South Carolina, and Chairman, 
  Subcommittee on Immigration and Border Security................   119

                                APPENDIX
               Material Submitted for the Hearing Record

Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Ranking Member, 
  Subcommittee on Immigration and Border Security................   128

 
                   HEARING ON THE LEGAL WORKFORCE ACT

                              ----------                              


                      WEDNESDAY, FEBRUARY 4, 2015

                        House of Representatives

            Subcommittee on Immigration and Border Security

                       Committee on the Judiciary

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 10:04 a.m., in 
room 2141, Rayburn Office Building, the Honorable Trey Gowdy, 
(Chairman of the Subcommittee) presiding.
    Present: Representatives Gowdy, Goodlatte, Labrador, Smith, 
King, Buck, Ratcliffe, Trott, Conyers, Jackson Lee, and 
Pierluisi.
    Staff Present: (Majority) George Fishman, Subcommittee 
Chief Counsel; Andrea Loving, Counsel; Graham Owens, Clerk; and 
(Minority) Tom Jawetz, Minority Counsel.
    Mr. Gowdy. Good morning. This is the Subcommittee on 
Immigration and Border Security. This is a hearing on H.R. 
1772, the ``Legal Workforce Act.''
    The Subcommittee will come to order. Without objection, the 
Chair is authorized to declare recesses of the Committee at any 
time.
    We welcome everyone to today's hearing on the Legal 
Workforce Act. I will introduce the witnesses.
    And we thank you for your presence and your expertise. I 
will introduce you later, but for now, I will recognize the 
gentleman from the great State of Texas, Mr. Lamar Smith.
    Mr. Smith. Thank you, Mr. Chairman. I appreciate you 
yielding me time and giving me the opportunity to talk about 
this piece of legislation, which I introduced in the last 
Congress and hope to introduce in the next few days in this 
Congress.
    Mr. Chairman, almost 20 million Americans are unemployed or 
underemployed. Meanwhile, 7 million people are working in the 
United States illegally. These jobs should go to American 
citizens and legal workers who need these jobs.
    The Legal Workforce Act turns off the jobs magnet that 
attracts so many illegal immigrants to the United States. The 
bill expands the E-Verify system and applies it to all U.S. 
employers.
    Illegal workers cost Americans jobs or depress their wages, 
according to nearly all studies on the subject. For example, a 
Center for Immigration Studies report found that illegal 
immigration reduces the wages of American workers by 
approximately $650 per worker. We need to do all we can to 
protect the jobs and wages of American workers.
    The Legal Workforce Act also would open up millions of jobs 
for unemployed Americans by requiring employers to use E-
Verify. The E-Verify system is quick and effective, confirming 
99.7 percent of work-eligible employees.
    Recent data shows that approximately 575,000 American 
employers voluntarily use E-Verify already, and an average of 
1,400 new businesses sign up each week for E-Verify. One third 
of American jobs are now covered by E-Verify.
    The program is free, quick, and easy to use. In fact, E-
Verify will soon be available for use on smart phones. It will 
take about 1 minute per potential employee.
    Individuals provide their Social Security number when they 
visit a doctor, open a bank account, or buy a home. It makes 
sense that other businesses should check the status of 
prospective employees to ensure that they have a legal 
workforce.
    The Legal Workforce Act requires that U.S. employers use E-
Verify to check the work eligibility of new hires in the U.S. 
The verification period is phased-in and depends on the size of 
the employer's business. Smaller businesses have up to 2 years 
to implement E-Verify.
    The legislation balances immigration enforcement priorities 
and legitimate employer concerns. It gives employers a workable 
system under which they cannot be held liable if they use the 
system in good faith. The bill prevents a patchwork of State E-
Verify laws, but retains the ability of States and localities 
to condition business licenses on the use of E-Verify. It also 
allows States to enforce the Federal E-Verify requirement, if 
the Federal Government fails to do so.
    The Legal Workforce Act increases penalties on employers 
who knowingly violate the requirements of E-Verify and imposes 
criminal penalties on employers and employees who engage in or 
facilitate identity theft.
    The bill creates a fully electronic employment eligibility 
verification system, and it allows employers to voluntarily 
check their current workforce if done in a nondiscriminatory 
manner.
    Furthermore, the Legal Workforce Act gives U.S. Citizenship 
and Immigration Services the ability to prevent identity theft. 
The bill allows individuals to lock their own Social Security 
number so that it cannot be used by others to verify work 
eligibility. The legislation also allows parents to lock the 
Social Security number of a minor child to prevent identity 
theft.
    If a Social Security number shows unusual multiple uses, 
the Social Security Administration locks the number for 
employment verification purposes and notifies the owner that 
their personal information may be compromised.
    A report by Westat in 2009 on error rates and the cost of 
E-Verify is clearly outdated. That study utilized old data and 
failed to consider the provisions aimed at preventing identity 
theft mentioned above and that are in the bill today.
    In regard to cost, one study showed that three quarters of 
employers stated the cost of using E-Verify is zero.
    Equally important, the American people support E-Verify. 
Last month, a Paragon Insights poll showed that 71 percent of 
voters ``support Congress passing new legislation that 
strengthens the rules making it illegal for businesses in the 
U.S. to hire illegal immigrants.''
    In fact, E-Verify receives the most public support of any 
immigration reform provision.
    Unfortunately, many States do not enforce their own E-
Verify laws, and others only apply E-Verify in a very limited 
way. The Legal Workforce Act helps ensure that employers from 
every State have the same standard when it comes to hiring 
employees.
    This bill is a common-sense approach that will reduce 
illegal immigration and save jobs for American workers and 
legal workers. It deserves the support of everyone who wants to 
put the interests of U.S. workers first.
    Thank you, Mr. Chairman, and I will yield back.
    Mr. Gowdy. I thank the gentleman from Texas.
    The Chair will now recognize the gentleman from Michigan, 
the Ranking Member, former Chairman of the Judiciary Committee, 
Mr. Conyers.
    Mr. Conyers. Thank you, Chairman Gowdy. This is a subject, 
that of today's hearing, that is very familiar to us because 
over the past 4 years, this same Subcommittee has held six 
hearings on E-Verify, the government's electronic employment 
verification system.
    Each time that we have looked at it, each time we have 
considered the Legal Workforce Act, I have also said that E-
Verify is an important tool. But I have also said, and the 
witnesses appearing before us have agreed, that E-Verify cannot 
be made mandatory for all employers without comprehensive 
reforms to our Nation's broken immigration system. That is a 
very important point, that E-Verify cannot be made mandatory 
for all employers without comprehensive reform to our Nation's 
immigration system.
    For years, some have argued that to fix the broken system, 
we need only enforce the laws on the books, but we know that is 
not a real and viable solution. We cannot rely solely upon 
enforcement of our broken laws.
    The truth is that enforcement without reform will actually 
hurt the American worker. But if we fix our broken immigration 
system, we can help American workers and grow our economy, or 
to put it another way, the Congressional Budget Office told us 
in December that enacting this bill into law would increase the 
deficit by $30 billion over 10 years. But enacting the Senate-
passed immigration reform bill, S. 744, would in fact reduce 
the budget deficit by $158 billion over the first 10 years and 
by about $680 billion over the next 10 years. I want to get 
into that in the hearing.
    Whenever we talked about E-Verify, it is important that we 
think about how the world really works. I have heard people say 
that E-Verify will help American workers because every time an 
undocumented immigrant is denied a job, an unemployed American 
gets hired. It is a pretty simple idea, and I can see how it 
could be appealing. But the problem is that it is false.
    Immigrants often fill gaps in our own workforce, where 
there are not enough Americans willing to do the work. Because 
50 percent to 70 percent of the Nation's farmworkers are 
undocumented, mandatory E-Verify would be especially 
devastating to that industry. No one would pick the fruits and 
vegetables in the fields, and they would probably be left to 
rot. American farms would go under, and jobs would be moved 
overseas, including the millions of upstream and downstream 
American jobs supported by agriculture.
    Now when we first considered this bill in the 112th 
Congress, the Legal Workforce Act contained a simple solution 
for the agriculture industry. It created a special carve-out in 
the law to exempt farmers from the requirement to use E-Verify. 
And in the final days of the 113th Congress, this Committee 
reported to the floor this bill and an agricultural guestworker 
bill. But in part because the guestworker proposal did not have 
much support, neither bill went anywhere.
    Finally, E-Verify could already be required for employers 
around the country. Had my conservative friends in the House 
taken up the bipartisan comprehensive immigration reform bill 
passed by the Senate way back in 2006, mandatory E-Verify would 
be the law today. And had House Republicans taken up S. 744, 
the bipartisan comprehensive immigration reform that passed the 
Senate with a supermajority in the last Congress, or H.R. 15, 
the bipartisan bill in the House, mandatory E-Verify, again, 
would be the law of the day.
    So instead, our Republican leaders in the House chose not 
to act on either of these proposals. They withered on the vine 
and died, just as crops would go unpicked if this bill were to 
become law without broader changes to our immigration system.
    So I look forward to the hearing, and I want to welcome all 
of the witnesses to today's hearing. I thank the Chairman and 
yield back any time remaining.
    Mr. Gowdy. I thank the gentleman from Michigan.
    The Chair will now recognize the gentleman from Virginia, 
the Chairman of the full Committee, Mr. Goodlatte.
    Mr. Goodlatte. I thank the gentleman from South Carolina 
for holding this hearing, and I thank the gentleman from Texas 
to my immediate right here for once again championing the Legal 
Workforce Act. It will play an integral role in the enforcement 
of U.S. immigration laws and the discontinuation of the jobs 
magnet responsible for so much illegal immigration.
    Americans have long been promised tougher immigration 
enforcement in exchange for the legalization of those 
unlawfully in the U.S. But Administrations never kept these 
promises, and today, we are left with a broken immigration 
system.
    One way to make sure we discourage illegal immigration in 
the future is to prevent unlawful immigrants from getting jobs 
in the U.S. Requiring the use of E-Verify by all employers 
across the country will help do just that.
    The Web-based program is a reliable and quick way for 
employers to electronically check the work eligibility of newly 
hired employees.
    The Legal Workforce Act, as reported out of this Committee 
last Congress, builds on E-Verify's success and helps ensure 
the strong enforcement that was promised to the American people 
many years ago. But the bill does not simply leave enforcement 
up to the Federal Government.
    In fact, it actually empowers States to help enforce the 
law, ensuring that we do not continue the situation we have 
currently where a President can turn off Federal enforcement 
efforts unilaterally.
    Nearly 575,000 employers are currently signed up to use E-
Verify. It is easy for employers to use and is effective. In 
fact, as USCIS testified in front of this Subcommittee last 
Congress, E-Verify immediately confirms the work eligibility of 
persons eligible to work 99.7 percent of the time.
    But the system is not perfect. For instance, in cases of 
identity theft, when an individual submits stolen identity 
documents and information, E-Verify may confirm the work 
eligibility of that individual.
    This happens because E-Verify uses a Social Security number 
or alien identification number and certain other corresponding 
identifying information, such as the name and date of birth of 
an individual, to determine if the SSN or alien identification 
number associated with that corresponding information is work 
eligible. Thus, if an individual uses a stolen Social Security 
number and the real name corresponding with that Social 
Security number, a false positive result could occur.
    The Legal Workforce Act addresses identity theft in several 
ways.
    First, it requires notification to employees who submit for 
E-Verify an SSN that shows a pattern of unusual multiple use. 
In this way, the rightful owner of the SSN will know that their 
SSN may have been compromised. And once they confirm this, DHS 
and the Social Security Administration must lock that SSN so no 
one else can use it for employment eligibility purposes.
    The bill also creates a program through which parents or 
legal guardians can lock the Social Security numbers of their 
minor children for work eligibility purposes. This is to combat 
the rise in the number of thefts of children's identities.
    The bill also phases in E-Verify use in 6-month increments 
beginning with the largest U.S. businesses, raises penalties 
for employers who do not use E-Verify according to the 
requirements, allows employers to use E-Verify prior to the 
date they hire an employee, and provides meaningful safe 
harbors for employers who use the system in good faith.
    The witness testimony and other support proffered today 
will show that the Legal Workforce Act balances the needs of 
the American people regarding immigration enforcement with the 
needs of the business community regarding a fair and workable 
electronic employment verification system.
    I will continue to work with my colleagues and other 
stakeholders to address any additional concerns with the bill 
as we move it through the Committee.
    I look forward to the witness testimony and welcome all of 
you here.
    I yield back. Thank you, Mr. Chairman.
    Mr. Gowdy. I thank the Chairman.
    The Chair will recognize the gentlelady from the great 
State of Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. I thank the Chairman very much, and I 
acknowledge the indication that the Ranking Member of this 
Committee had to be called away today, and I thank you and her 
for this hearing and offer this statement on behalf of the 
Subcommittee on Immigration and Border Security.
    Let me be clear at the outset that E-Verify is an important 
tool for the future, but it needs to be made mandatory at the 
right time and in the right way. The bill that we marked up in 
the summer of 2013 had many good features to it, but it did not 
meet those two important requirements.
    Let me also say that I do this and make this statement in 
the backdrop of the need for comprehensive immigration reform 
and would simply ask the question, wouldn't this be a better 
approach if we did have a comprehensive approach?
    Let me state it plainly: E-Verify cannot be made mandatory 
for all employers until having first enacted comprehensive 
immigration reform, because E-Verify without that would have 
devastating though unintended consequences.
    One possibility is that it would essentially drive 8 
million undocumented workers out of the workforce, which would 
devastate many industries that depend upon on that workforce, 
especially in agriculture. And I would venture to say that it 
would be an uncertainty as to whether or not there would be 
enough buses to bus 8 million individuals back to their home 
country.
    Another possibility is that it would drive those 8 million 
undocumented workers even further under the radar and off of 
the books, and that is what led CBO to find that enacting this 
bill into law would raise the deficit by $30 billion over 10 
years.
    Mr. Chairman, if we are going to do E-Verify the right way, 
we agree with much of what is in the law, but there are 
deficiencies in this bill that we highlighted during the markup 
last Congress, and that we detail in our dissenting views: the 
lack of due process for workers who are harmed by erroneous 
nonconfirmations, provisions that will facilitate 
discrimination and inappropriate bars to proper judicial 
relief, and unnecessary and inappropriate ban on class action 
lawsuits, for instance.
    E-Verify has the potential to be an important tool in the 
effort to address unauthorized employment, but if done in 
isolation as the Legal Workforce does, it would inflict 
tremendous harm on American workers, businesses, and the 
economy.
    I am also concerned that requiring the use of E-Verify will 
cause many Texas workers to lose their jobs. The rush to 
implement a flawed E-Verify program across-the-board is 
guaranteed to hurt thousands of authorized U.S. workers like 
people in the 18th Congressional District, my district, who 
need good jobs but will be erroneously denied employment 
authorization by errors in the system. The system is heavily 
overburdened and can be, if it is not a sophisticated system.
    The bill would also hit small businesses particularly hard, 
imposing significant burdens on very small firms that may not 
even have human resource departments, but would still have to 
use the new system, even those with only a single employee.
    But I also think of small mom-and-pop restaurants, which 
would face that. And I notice that the National Restaurant 
Association is here, and I hope that they would consider that, 
as they represent their large restaurateurs, about the mom-and-
pop restaurants.
    E-Verify would actually exacerbate Texas unemployment, 
according to estimates based on government sources. If the 
entire U.S. workforce were required to have its employment 
eligibility verified through E-Verify, a conservative estimate 
is that between 1.2 million and 3.5 million U.S. citizens and 
authorized immigrants would either have to correct their 
records or lose their jobs. Extrapolating from these estimates 
approximately, 101,000 to 291,000 citizens and authorized 
immigrant workers in Texas would have to correct their records 
in order to avoid being fired.
    In Texas, approximately 19.3 percent of the labor force is 
comprised of foreign-born workers. Foreign-born workers 
authorized for employment have encountered a disparate 
disproportionate E-Verify error rate 20 times greater than 
U.S.-born employees. If we were to use a rough estimate, this 
would affect up to 63,495 legal workers in Texas.
    I would note that in yesterday's Rules Committee, a number 
of bills were considered relevant on this very issue.
    Lastly, we consider how E-Verify would decimate the 
agriculture industry. We have heard a lot of that from Mr. 
Conyers. So I would simply say that, in joining on his point, I 
conclude by reiterating that we need a larger system to deal 
with E-Verify.
    And I hope, as the witnesses present their testimony, they 
will, with good intentions, tell us if they believe in 
comprehensive immigration reform. That should be put on the 
table because I know there are several groups at that table who 
represented to me that they support comprehensive immigration 
reform.
    With that, I yield back.
    Mr. Gowdy. I thank the gentlelady.
    Without objection, additional Members' opening statements 
will be made a part of the record.
    Before I recognize our witnesses, I would ask unanimous 
consent to put in the record letters of support from the 
International Franchise Association, National Association of 
Homebuilders, and NumbersUSA.
    [The information referred to follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                    
                               
                              ----------                              

    Mr. Gowdy. With that, I welcome our distinguished panel. I 
will begin by asking you to please rise so I can administer an 
oath to you.
    Do you swear the testimony you are about to give shall be 
the truth, the whole truth, and nothing but the truth, so help 
you God?
    Let the record reflect everyone answered in the 
affirmative.
    I will introduce you en bloc, and then I will recognize you 
individually for your 5-minute opening statements. Despite the 
fact that we do not always honor them, the lights mean what 
they traditionally mean in life. Yellow means you have about a 
minute left, and red means if you would conclude whatever 
remarks you are in the middle of.
    Randel K. Johnson is a senior vice president of the U.S. 
Chamber of Commerce for labor, immigration, and employment 
benefits. Before joining the Chamber, he served as counsel to 
the U.S. House of Representatives Committee on Education and 
the Workforce. He is a graduate of Denison University, the 
University of Maryland School of Law, and earned his masters of 
law and labor relations from Georgetown.
    Ms. Jill Blitstein is here on behalf of the College and 
University Professional Association for Human Resources. She is 
currently the international employment manager at N.C. State 
University. In this position, she oversees the employment 
eligibility verification process and compliance procedures at 
N.C. State. Prior to joining N.C. State, she was senior 
associate with a Chicago law firm that I cannot pronounce most 
of the names for, but I am sure is very distinguished, from 
1997 to 2007. Ms. Blitstein received her law degree from DePaul 
University College of Law in 1995.
    Mr. Angelo Amador is senior vice president and regulatory 
counsel for the National Restaurant Association. He advocates 
on behalf of the National Restaurant Association and its 
members before the U.S. Congress and the executive branch. 
Prior to enjoying the NRA--not that NRA, the National 
Restaurant Association--he served as executive director in the 
labor immigration reform and benefits division of the U.S. 
Chamber of Commerce and as an adjunct professor of law at the 
George Mason University School of Law. He is a graduate of the 
Robert H. Smith School of Business at the University of 
Maryland. He obtained a master's of arts in international 
transactions from George Mason and a J.D. from George Mason, 
graduating with honors.
    Lastly, Mr. Chuck Conner is president and chief executive 
officer of the National Council of Farm Cooperatives, a D.C.-
based trade association representing the interests of U.S. 
agricultural cooperatives. He has more than 25 years of 
national and State government agriculture and trade association 
experience. Prior to joining the NCFC, he served as acting 
director and deputy director for the U.S. Department of 
Agriculture. He is a graduate of Purdue University with a 
bachelor's of science and a recipient of Purdue's Distinguished 
Alumni Award.
    Welcome each and every one of you.
    Mr. Johnson, we will recognize you for your opening 
statement.

 TESTIMONY OF RANDEL K. JOHNSON, SENIOR VICE PRESIDENT, LABOR, 
  IMMIGRATION AND EMPLOYEE BENEFITS, U.S. CHAMBER OF COMMERCE

    Mr. Johnson. Thank you, Chairman Gowdy.
    As Mr. Conyers suggested, we have been at this for some 
time. In the earlier days, when the Chamber has testified, I 
think at this same table, we in fact, as Mr. Smith knows, 
opposed mandatory E-Verify, of course, for a lot of good 
reasons back then. But the Chamber can change as times change. 
As the years went by, and more of our members engaged in the 
system voluntarily, and, frankly, while we were watching things 
on Capitol Hill and in the courts and in the States, we decided 
to re-evaluate our position.
    We put together an extensive task force back in January 
2011, almost 5 years ago now, comprised of a cross-section of 
our members. We drew that from our immigration policy 
subcommittee with input from our small business council and 
said, well, we need to take a look at E-Verify. What do we need 
to sort of buy into a mandate, if we can?
    Obviously, at the Chamber, and I have been there now 16 
years, I think there has been only one other time I have 
testified agreeing to a new mandate on our members. We take 
that very seriously and very carefully, for one reason, I love 
my job, and I am not going to agree to a mandate for the 
Chamber unless our members are behind me. And in this case, 
they were. That ranges from the larger businesses and the 
smaller businesses.
    So I am pleased to say today that we do support a mandatory 
E-Verify system and the act that we worked together principally 
with Mr. Smith on.
    Let me just kind of go through the sort of variations or 
the issues that we talked about. First of all, and I think this 
is important to note, it is, certainly, in my written 
testimony, but it was suggested by further speakers, there have 
been a lot of technical improvements on E-Verify over the 
years.
    Every system, not every system, this system certainly has 
gotten better as the kinks have been worked out. There are 
errors, but there are less errors than before. It would be 
better if there were no errors but when you are down to an 
approximately 0.3 percent error rate, I think that is something 
to be bragged about. And we are never going to get down to a 
zero rate unless we start rolling this out to more people and 
continue to work out the costs.
    With regard to costs, I know there are some, and Mr. Smith, 
he talked about this, there are a lot of misinformation out 
there. A lot of economists have looked at this. I can tell you 
our economists have looked at the studies out there that talk 
about something like 2.7 billion. Economists can come up with 
lots of studies. We all know that. The bottom line is that, for 
my members, we hear they can adapt to this system quite easily, 
and the costs are quite minimal. If anything, they are 
principally concerned about costs of reverification, if in fact 
the law went that direction, which, fortunately, it doesn't.
    Third, preemption, Mr. Goodlatte touched on this, 
preemption of State laws. Look, we have mostly multinational 
companies, but we also have small businesses that work across 
State lines. We had to have in a bill that we could support a 
preemption of State law, State and local laws. The language in 
the bill is a balance of various interests in this. Would we 
have rather had blanket preemptions such as under ERISA or the 
National Labor Relations Act? Sure. But we have to understand 
that compromises have to be made and that compromises are 
reflected in this act.
    Fourth, we cannot support a blanket reverification of an 
existing workforce. One doesn't have to be a genius to think 
about the burdens and obligations that would accrue to, say, an 
IBM that had to reverify its 10,000 workers, et cetera. And in 
reality, because we have such high turnover in this day and 
age, essentially, the workforce often will recycle through 
anyway through a new E-Verify system.
    Fifth, we also need to have sorts of safe harbors, which 
are reflected in the act. I do want to mention that the act 
does protect the contractor and subcontractor relationship. 
And, Chairman Gowdy, in a time when the National Labor 
Relations Board is revisiting the whole area of joint employer 
liability, we are pleased that the act in front of the 
Committee today isolates contract and subcontractor liability 
from each other.
    Lastly, I want to close with saying that I think the 800-
pound gorilla in the room here is what we do about agriculture 
industry. I know everyone on the dais is attuned to this. But 
surely, I think before an E-Verify bill goes to the floor, you 
all have to figure out what we do about the agriculture 
industry, whether it is a fix in the guestworker program or 
legalization, I am not smart enough to say. That, certainly, is 
in their world, but something has to be done in the area.
    And with that, let me just say that we still remain 
committed to immigration reform in other areas, Mrs. Lee. And I 
am sure that will come up in the Q&A. The Legal Workforce Act 
is a key aspect, a key underpinning of other reforms. But, 
certainly, it is one important aspect of those reforms. Whether 
it proceeds to the floor jointly with other bills or 
separately, I am not here to say. But we are, certainly, 
committed to other parts of immigration reform.
    Thank you.
    [The prepared statement of Mr. Johnson follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
                               
    Mr. Gowdy. Thank you, Mr. Johnson.
    Ms. Blitstein?

TESTIMONY OF JILL G. BLITSTEIN, ESQ., INTERNATIONAL EMPLOYMENT 
   MANAGER, HUMAN RESOURCES, NORTH CAROLINA STATE UNIVERSITY

    Ms. Blitstein. Chairman Gowdy, honorable Members of the 
Subcommittee, thank you for the opportunity to appear before 
you today to express support for the Legal Workforce Act. I am 
the international employment manager at North Carolina State 
University. N.C. State is an active member of the College and 
University Professional Association for Human Resources.
    CUPA-HR represents more than 1,900 educational 
institutions, 44 percent of which are public. And I am speaking 
to you today on behalf of CUPA-HR.
    My institution has been using E-Verify since January 1, 
2007, when it was mandated by the State of North Carolina for 
all public agencies and for the university system.
    I have responsibility for N.C. State's I-9 and E-Verify 
processes. With more than 8,000 regular employees and almost 
8,000 more students and temporary workers, including foreign 
nationals, our use of the I-9 and E-Verify process is constant.
    I will speak to you today as someone who has experienced 
the favorable effects of this program, as well as someone who 
can offer a few informed suggestions as to its implementation.
    CUPA-HR supports the majority of positions within the act 
as being positive both for employers and employees, including 
the reduction in the number of acceptable documents to prove 
identity and employment authorization. Many documents on the 
current list are confusing or rarely used, so streamlining them 
will add much needed clarity to the process, facilitating 
faster and easier compliance for everyone involved.
    Additionally, CUPA-HR strongly supports the recognition of 
a good faith defense based on compliance with the processes of 
the act. As an example, N.C. State has relied on E-Verify final 
nonconfirmations to justify the termination of employment of 
some of our employees.
    CUPA-HR especially supports the act's clear preemption of 
State and local law on unemployment verification. Having a 
single national verification process is extremely important not 
only from a national policy perspective but also from a 
practical standpoint for an employer with employees across the 
U.S.
    As a collaborative research institution, N.C. State has 
employees in over 40 States. The current patchwork of policies 
and laws around the country make it incredibly difficult for 
employers like us to know and comply with each jurisdiction's 
rules regarding employment eligibility verification.
    N.C. State never experienced the worst-case scenarios that 
circulated several years ago regarding fears of excessive final 
nonconfirmation results. And in the 8 years that we have used 
E-Verify, we have received almost instantaneous employment 
verification results for the majority of our employees. We 
believe the employment verification process works as intended.
    That said, based on direct experience, we do have a few 
suggestions regarding the current act. It would require that 
within 6 months after enactment, all Federal, State and local 
government employers verify employment eligibility for any 
employees not already in the E-Verify system. Having verified 
the entire workforce at N.C. State University, I can tell you 
with confidence that that is not a realistic timeframe in which 
to achieve full compliance for large employers.
    Based on an amended executive order in 2009, N.C. State was 
required to either verify employees constantly as they came and 
went on certain Federal contracts or to verify all employees. 
We quickly realized that our best option was to verify our 
entire workforce, meaning every active employee hired before 
January 1, 2007. We had to enter data from approximately 12,000 
I-9 forms into E-Verify within 6 months to achieve compliance, 
and it took us 7 months to accomplish that goal.
    The time and effort required was significant. And since 
then, we have invested in an electronic system to help manage 
our process.
    CUPA-HR would encourage consideration of a 24-month phased 
rollout compliance timeframe, particularly for the largest 
public employers.
    CUPA-HR would also like to recommend that the timeframe for 
verifying foreign national employees who have applied for a 
Social Security account number be extended beyond the proposed 
3 days after the actual receipt of their new number. As an 
employer with approximately 1,000 foreign national workers and 
employees every year, it is impossible for N.C. State as the 
employer to know exactly when a new employee receives his or 
her new number. Consequently, we have no realistic way to know 
when this 3-day requirement to finish E-Verify would begin or 
end.
    Lastly, CUPA-HR also suggests that the verification 
process, which is currently 3 business days after the hire 
date, be extended to at least 5 business days after the hire 
date. Any large employer can tell you that performing the 
required identity and employment authorization verification 
check within the 3 business days is incredibly labor-intensive. 
Despite best efforts, meeting this deadline is a constant 
source of frustration even for those employers most committed 
to compliance.
    In closing, the Legal Workforce Act as a balanced approach 
to creating a more secure and flexible employment verification 
system. CUPA-HR respectfully encourages the Committee to 
consider the suggestions we have offered today, and we are 
grateful for your time and attention. And I personally thank 
you for this opportunity to testify.
    [The prepared statement of Ms. Blitstein follows:]
  
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
                               
    Mr. Gowdy. Thank you, Ms. Blitstein.
    Mr. Amador, I want to congratulate you on that beautiful 
tie you have on with the seal from the State of South Carolina. 
It did not go unnoticed. I will direct no questions toward you 
today, but you are recognized for 5 minutes.

 TESTIMONY OF ANGELO I. AMADOR, ESQ., SENIOR VICE PRESIDENT & 
      REGULATORY COUNSEL, NATIONAL RESTAURANT ASSOCIATION

    Mr. Amador. I knew I wore it for good reason.
    Good morning, Chairman Gowdy, Congressman Conyers, and 
distinguished Members of the Subcommittee. Special greetings to 
our Congressmen Pierluisi, who actually broke me into doing 
policy here in Washington, D.C. I am always glad to see you 
here.
    Thank you for allowing me the opportunity to represent the 
National Restaurant Association. My name is Angelo Amador, and 
I am the senior vice president and regulatory counsel for the 
National Restaurant Association.
    The National Restaurant Association believes that the Legal 
Workforce Act is a thoughtful, balanced approach to 
implementing a major change related to workplace hiring for 
employers. We appreciate the bill's sponsors and the 
Subcommittee's efforts to think through the real-world 
implementation a universal E-Verify mandate.
    Put in context, the mandate once implemented will be the 
final hurdle that every U.S. employer must clear for each and 
every hiring decision made in the United States. In our 
industry, with naturally high turnover rates and one that is so 
reliant on a robust workforce, the details of how the system is 
implemented is incredibly important.
    While I touch on a number of other areas in my written 
statement, I would like to address four key areas of concern in 
the implementation of a mandatory E-Verify program. Before I go 
into those four, I will reiterate as well that we oppose 
reverification of the entire workforce, which is one of the 
reasons, not the only reason, that we supported the King 
amendment during the last Congress, the last markup, that 
allows reverification of certain workers for good cause.
    But the four that I want to talk about today, the first one 
is Federal preemption. We believe that designing an employment 
authorization verification system is, without question, a 
Federal law role. Action by 50 different States and numerous 
local governments in passing a patchwork quilt of employment 
verification laws creates an untenable system for employers and 
prospective employees.
    Under the Legal Workforce Act, States and localities are 
preempted from legislating different requirements or imposing 
additional penalties. However, they may enforce the Federal law 
and also revoke a business license for failure to participate 
in the program.
    As the Chamber stated, we also would prefer a blanket 
preemption, but we understand the need to reach a balance.
    Second safe harbor, full and fair enforcement of an 
improved E-Verify system should protect employers that act in 
good faith. Piling on fines and other penalties for even small 
paperwork errors, punishing the people who are trying to do the 
right thing, is not the answer. The Legal Workforce Act states 
that an employer cannot be held liable for good-faith reliance 
on information provided through the E-Verify system. We 
strongly support this provision and believe that no employer 
who is using the system in good faith should be held liable by 
the government for relying on information provided by the 
government's database that turns out to be incorrect.
    Likewise, we also strongly believe that employers should 
not be held liable by an employee or worker they chose not to 
hire as a result of faulty information provided by the 
government's database. Now we are not saying they should not 
have recourse, but the recourse should not be on the employer.
    Third, early verification, we support the provision in the 
bill that allows verification when an offer of employment is 
extended and making that offer conditioned on final 
verification of identity and employment eligibility of the 
employee. Employers should be given authority to check work 
authorization when an offer of employment is made. In those 
cases where a temporary nonconfirmation is issued, it allows 
the employee to start working with the government as soon as 
possible to fix any discrepancies before they show up for the 
first day of work. After all, you can do all of the other 
background checks beforehand, as well.
    Finally, employment laws, there are already existing laws 
governing wage requirements, pensions, health benefits, the 
interaction between employers and unions, safety and health 
requirements, hiring and firing practices, and discrimination 
status.
    Verifying employment authorization, not expansion of a 
Christmas tree wish list of employment protections, should be 
the sole emphasis of an E-Verify mandate. That is one of the 
reasons we did not support the employment verification title in 
the Senate bill, and in the Q&A, I will be happy to address 
that in more detail.
    The association is very encouraged by the Legal Workforce 
Act's emphasis on keeping it simple, a workable national E-
Verify system.
    In summary, it would be easy to ignore the real concerns of 
the business community with a national E-Verify mandate simply 
passing a law requiring its use. It is harder to pass a 
responsible E-Verify mandate that accommodates different needs 
of the close to 8 million employers in the U.S.
    In the National Restaurant Association's opinion, the Legal 
Workforce Act reaches the right balance, a broad Federal E-
Verify mandate that is both fast and workable for businesses of 
every size under the practical, real-world working conditions.
    Thank you again for this opportunity to share my testimony.
    [The prepared statement of Mr. Amador follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
    Mr. Gowdy. Thank you, Mr. Amador.
    Mr. Conner?

  TESTIMONY OF CHARLES F. CONNER, PRESIDENT AND CEO, NATIONAL 
                 COUNCIL OF FARMER COOPERATIVES

    Mr. Conner. Chairman Gowdy, Congressman Conyers, and 
Members of the Subcommittee, thank you for the invitation to 
testify today. I am Chuck Conner, president and CEO of the 
National Council of Farmer Cooperatives. I am also here on 
behalf of the Agriculture Workforce Coalition. The AWC brings 
together nearly 70 organizations representing the diverse needs 
of farmers and agricultural employees and serves as the unified 
voice for agriculture on immigration issues.
    While labor situation in agriculture has been a concern for 
many years, Mr. Chairman, it has now reached a breaking point. 
Today, large segments of American agriculture face a critical 
lack of workers.
    Specific to the topic at hand today, mandatory E-Verify, 
without addressing agriculture's broader labor crisis, would be 
devastating. As an industry, we recognize the need for interior 
enforcement. It just cannot be decoupled from addressing 
agriculture's workforce concerns.
    Despite the employer's best efforts, many if not most of 
the agriculture workforce does not have proper paperwork 
authority. Based on the study conducted by the American Farm 
Bureau Federation in 2014, an enforcement-only approach would 
cause American agriculture output to fall by $30 billion to $60 
billion. It would decrease fruit production by 30 percent to 61 
percent and vegetable production by 15 percent to 31 percent. 
The livestock sector would also see losses of up to 27 percent.
    American dairy farmers in particular would be impacted by 
an enforcement-only approach. For dairy farmers, their harvest 
comes twice a day, every single day. The dairy industry with 
year-round needs cannot use the current H-2A program as 
currently interpreted. Dairy farmers are left without any legal 
channel to find workers, if U.S. workers are simply not 
available or not interested.
    Mr. Chairman, American agriculture's biggest challenge in 
the future is to increase our food output in order to meet the 
dramatic rise in food needs for a growing planet. A large 
decrease in our food production in the U.S. would have 
significant humanitarian consequences in the future.
    For agriculture, the ideal approach to solving the labor 
problem would be to provide a solution for the experienced 
workforce and a redesigned guestworker program. This then could 
be followed by a phased-in E-Verify program.
    Mr. Chairman, I doubt anyone on this Subcommittee would 
question the integrity of America's law-abiding farmers and 
ranchers. The vast, vast majority of American farmers fully 
comply with the law. But the paper-based system created by 
Congress in 1986 is vulnerable to use of false documents. 
Employers, including farmers, are not experts at spotting false 
documents. So long as a solution is in place to ensure access 
to a legal and stable workforce, farmers would welcome a system 
that is simple, efficient, effective, and certain.
    Bills in recent years would have phased-in E-Verify with 
agriculture generally being last in line. These bills recognize 
agriculture's demographic challenges and its need for foreign 
labor.
    This is a bold thing for us to suggest, Mr. Chairman, but 
if this Congress were to pass reform legislation that truly 
addresses agriculture's workforce challenges, the industry 
could pursue a phase-in of E-Verify sooner rather than later.
    But in closing, let me just be very clear. The agriculture 
industry would be forced to oppose any E-Verify legislation 
that does not address the agriculture workforce crisis. E-
Verify legislation without provisions to address the unique 
labor needs of agriculture will drive more of our farmers out 
of business and move more of our food production abroad, where 
there is, indeed, abundant labor. I have never encountered 
anyone, a Member of Congress or in the general public, who 
believes that would be a positive outcome, Mr. Chairman.
    Thank you for the opportunity to testify today.
    [The prepared statement of Mr. Conner follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
    Mr. Gowdy. Thank you, Mr. Conner.
    The Chair will now recognize the gentleman from Virginia, 
the Chairman of the full Committee, Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    Let me direct my first question to Mr. Johnson with the 
Chamber. You mentioned in your statement, and I wonder if you 
would elaborate, in recent years, several States and localities 
have enacted their own E-Verify requirements. What is the 
concern of the business community if more and more States 
continue to enact their own requirements as opposed to the 
Federal Government enacting a nationwide requirement?
    Mr. Johnson. It is one of practicality and human resource 
compliance, which is, it is obviously easier to administer and 
instruct your H.R. people if you have one standard to tell them 
they need to comply with. And if that is the Federal standard, 
that is the one they need to be taught toward, as distinguished 
from multiple standards across State lines.
    Is it possible? Sure. Lots of things are possible. But it 
is extremely difficult.
    Further, Congressman, it is not just a question of the law 
on the books as they are written, because if you have State and 
localities enforcing those different laws, that enforcement 
itself has a different patina on it, which then your compliance 
people and your companies have to be trained on. So it is an 
extremely complex area, and we think it is simply one that is 
unworkable.
    I do note that, of course, the preemption language in Mr. 
Smith's bill does allow for some State enforcement with regard 
to when an employer is not using the Federal E-Verify system, 
so the language in there seems to strike a balance.
    Mr. Goodlatte. Enforcement but not having a separate method 
by which you verify. In other words, they can participate in 
enforcement but not set up their own----
    Mr. Johnson. Right. Exactly. They cannot set up their own 
mechanism.
    Mr. Goodlatte. Let me ask Mr. Amador, you mentioned in your 
testimony concerns about some of the requirements in the Senate 
bill. The employment eligibility verification process set out 
in the Legal Workforce Act, Mr. Smith's bill, and the last 
Congress' Senate immigration reform bill were quite different. 
What are some of the problems with the Senate bill's employment 
eligibility verification process?
    Mr. Amador. I think the Senate version, by the time it was 
done with amendments, it became something other than an 
employment verification system. It ended up becoming more like 
a labor law, employment law, and it created new causes of 
action, and created an awkward incentive for undocumented 
workers to either file grievances against employers or to be 
able to stay, once they were in proceedings, by filing claims. 
Before they even decided whether there were bogus claims or 
not, they would get a visa.
    There were a number of other things in the bill. It made it 
easier to fine, discrimination provisions and labor provisions. 
It became another labor law as opposed to an employment 
verification bill.
    Mr. Goodlatte. Ms. Blitstein, do you agree that the Legal 
Workforce Act adequately restricts the number of documents that 
can be used to prove identity and work authorization in order 
to help prevent fraud while at the same time allowing enough 
documents, understanding that not every person has every 
document?
    Ms. Blitstein. I do believe that the Legal Workforce Act 
does an adequate job of restricting those documents. As I 
mentioned, a lot of them are--I have been doing this for almost 
17 years and some of them I have never seen. There is kind of a 
small percentage of documents that are seen 90 percent of the 
time. So I think having more clarity, having a more brief list 
would be very, very helpful and would help streamline the 
process for the employer and employee.
    Mr. Goodlatte. Thank you.
    Mr. Amador, Mr. Conner expressed some concerns regarding 
the safe harbor provision. Can you discuss the current safe 
harbor provision in the Legal Workforce Act and how, as 
drafted, it is workable?
    Mr. Amador. I must say, I guess you can take any language, 
and I have gotten calls from people who think they can make it 
stronger. My view is that I haven't seen stronger safe harbors 
in immigration law than the one that is currently in the bill. 
So could it be changed? I mean, everything can be changed. But 
the way I read it, and the way I continue to read it, I haven't 
found anything that is stronger. We support it, so we don't 
want that amended as it is right now. Thank you.
    Mr. Goodlatte. Got it.
    And, Mr. Conner, you support employment verification. You 
want to see a legal temporary worker program for agriculture 
that would meet the needs of not just seasonal production but 
also processing plants and dairies that are year-round. And we 
have provisions in this bill, unlike current law and unlike the 
Senate bill and unlike other provisions that address more of 
those concerns than any that I have seen before, in terms of 
what I anticipate will follow.
    I don't disagree with you that we are going to have to have 
a better system to determine who is lawfully here in the 
country and who is lawfully eligible to accept employment. When 
we do, it is going to create a problem in agriculture, and we 
need to be prepared to address that, so I, certainly, look 
forward to working with you on that.
    And with that, Mr. Chairman, I yield back.
    Mr. Gowdy. I thank the gentleman from Virginia.
    The Chair will now recognize the Ranking Member from 
Michigan, Mr. Conyers.
    Mr. Conyers. Thank you, Chairman Gowdy.
    I want to put forward a proposition to you and have 
everyone give me their view. I think E-Verify is perfectly 
okay, but bringing in an electronic employment verification 
system to agriculture presents some unusual problems, and that 
until we begin to deal with those first, as Congresswoman 
Sheila Jackson Lee pointed out, it is how we go about doing 
this.
    So I am in the position of being for the measure, if we can 
take care of some of the problems. It is a cart before the 
horse type situation. E-Verify is the cart, and we can't get 
there first.
    So do you agree with me that there are some big problems? 
We talk about the immigration system being broken, et cetera, 
but do you see some difficulties in the agricultural sector 
that could be a negative, that would not make E-Verify 
successful?
    What do you think, Mr. Johnson?
    Mr. Johnson. Yes, it is a conundrum. There is no question 
about it.
    Mr. Conyers. Right.
    Mr. Johnson. I think the agricultural community or field is 
the poster child of this problem. It exists in other 
industries, but they clearly would be the most adversely 
affected with E-Verify being signed into law by the President. 
There is a lot of space between the lip and the cup here, and 
nothing else either right behind it or preceding it.
    The order of how things proceed in the House is something 
you all will have to figure out and the Rules Committee. I 
should note that, just for the record, that while we supported 
the Senate bill, we never said the House should take up the 
Senate bill, by the way. We always thought the House should do 
its own thing and figure out how to do it. As a former House 
staffer, I would never support a Senate bill and say the House 
should just take up a Senate bill.
    Mr. Conyers. Of course not.
    Mr. Johnson. And I told the Senate staff over there they 
were crazy.
    But these things are linked, but so far, we are in a period 
of gridlock and not moving on anything, except perhaps border 
security. But even that got pulled from the floor.
    Mr. Conyers. Right.
    Let me go to attorney Blitstein and see if she shares the 
view that it is the order that we proceed in that is critical 
and that could determine, in agriculture, the ultimate success 
of E-Verify.
    Ms. Blitstein. Representative Conyers, I would have to say 
that CUPA-HR is not very familiar with the particular issues as 
related to the agricultural industry. So we would have to put 
that under more consideration before we would be able to offer 
an opinion on that.
    Mr. Conyers. All right.
    And, Mr. Amador, attorney Amador, you raised some of this 
question yourself in your commentary and in your written 
statement. Do you see the problem that I am presenting, and is 
it a fair one?
    Mr. Amador. On agriculture, our board, when they decided 
our position, we were clear that we did not want any exemptions 
for restaurants. We did not touch on the issue of agriculture, 
and we think Mr. Conner is in a better position to talk about 
his industry.
    Mr. Conyers. Right.
    Chuck Conner, you can finish up your observations on this 
point.
    Mr. Conner. Let me make two points, if I could, Mr. 
Conyers. I think you are right. Our problem with E-Verify is 
kind of twofold. The first is more fundamental, and that is we 
know we have a workforce that constitutes, as you have noted, 
50 percent to 70 percent of our hired workforce in agriculture 
that is not here with proper paperwork. So to go to an e-
verification system, as I have noted in my testimony, you would 
be removing large chunks of our workforce in place that is 
responsible for providing the food and feed for America today. 
I do not think anybody wants that consequence.
    The second one is more specific to agriculture, and that is 
just in terms of how you go forward with E-Verify. We do have 
the unique needs.
    Just an anecdotal point and that is my wife and I both have 
farms in Indiana. Not the most remote part of the world, by any 
means, but when we go out there, sir, iPhones don't work. I am 
sorry, but they don't. And there are a lot more remote 
agricultural regions in the country that are dependent on this.
    There are just a lot of structural issues that may sound 
good sitting here. But when you get out there in the field and 
you have peaches to harvest and the storm is coming and you 
have 12 hours to get them down, there are some practical----
    Mr. Conyers. In the real world, problems arise.
    And I thank you very much. I thank you, Mr. Chairman.
    Mr. Gowdy. I thank the gentleman.
    The Chair will now recognize the gentleman from the great 
State of Texas, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    I want to thank the Vice-Chairman of the Subcommittee, Mr. 
Labrador, for letting me precede him with questions. Although 
coming third when talking about a specific bill usually means 
that a lot of your questions have already been asked, and Mr. 
Goodlatte did a good job of that a few minutes ago. I have a 
couple left.
    Mr. Johnson, let me address my first question to you. That 
is, I know you all have polled your members. How do you respond 
to the occasional charge that I think is unsubstantiated that 
E-Verify is costly or burdensome? Have you found that to be the 
case?
    Mr. Johnson. Well, as I said, the study that is quoted by 
some we had our economists go through, and it is amazing, Mr. 
Smith, the analysis is in my written testimony about how the 
people who put that study together actually carved out from 
their conclusions the employers who reported zero costs and 
they just calculated in the employers who reported costs. There 
is also a weird way that they hired people moving, so the so-
called JOLTS study where they included people as new hires who 
were really promotions and promotions within a company.
    But look, the bottom line, Mr. Smith, is, we have a great 
policy committee at the Chamber. I have 200 people on my labor 
committee. I have 60 or 70 on my immigration policy 
subcommittee. They are from all levels of the economy and 
companies. Those are the people I go out and ask. They are out 
there where the rubber meets the road, and they are saying we 
can handle this.
    Mr. Smith. Okay. Thank you, Mr. Johnson.
    Mr. Amador, I know you have lots of members. I meet them on 
a regular basis. I am really appreciative of their support.
    I should say I thank you all for your support of this 
legislation, and for your constructive criticism, Mr. Conner, 
as well. You have made some good suggestions.
    Mr. Amador, do you find that your members find E-Verify to 
be accurate, and to what extent? According to your survey, do 
they find E-Verify to be accurate? And why do they like it?
    Mr. Amador. Yes. We conducted a survey in 2012. We were 
able to crank the numbers by 2013. We introduced it as part of 
a statement for the record, back in April 2013. The vast 
majority of the people that were using it, 80 percent, said 
they would recommend it to others.
    The ones that did not recommend it, they said that the 
issues were initially getting into claiming, but once they were 
using it, it was fine. Across all of the demographics, they 
said, actually 80 percent, that they had 100 percent accuracy.
    We allowed for comments in the survey. Again, it was about 
800. The one comment that they said was that we would rather 
know earlier whether the person is tentative nonconfirm, 
because when they show up to work and they come tentatively 
nonconfirm, at least in our industry what happens is they do 
not show up the next day when confronted with, hey, you need to 
go and----
    Mr. Smith. You actually anticipated my next question, which 
is what is the advantage of knowing prior to someone actually 
being hired, and having that E-Verify conducted ahead of time?
    Mr. Amador. I think it is twofold. There is an advantage to 
the employee that they would not have to take time off from 
work to go to the Social Security Administration, or wherever 
they need to go to fix this problem. And it is an advantage to 
the employer, because if there is any problem with the employee 
that he is not work-authorized, if they are going to disappear, 
you rather that they disappear before they already have a shift 
and they already started working.
    Mr. Smith. Right. Okay. Thank you, Mr. Amador.
    Mr. Conner, I understood you to say, and I just want to 
make sure this the case, because it will be helpful, that you 
would support E-Verify if it was used in conjunction with a new 
guestworker program. Is that generally correct?
    Mr. Conner. That is half of the story, Mr. Smith. In 
addition to obviously needing a viable guestworker program, 
which we currently do not have with H2-A, we need a solution 
for our existing trained workforce that has been estimated to 
be about 1.2 million to 1.4 million people who are already 
working full time on our farms and ranches.
    So our solution is twofold, a guestworker program, a 
solution for existing workforce. And with that, we are willing 
to talk to you, still acknowledging agriculture has some unique 
interests, as I have identified, in an E-Verify program. But we 
would be willing to try to resolve those.
    Mr. Smith. As you are aware, in the last Congress, this 
Committee did pass and approve a very robust guestworker 
program. So I was trying to see, and it sounds like while you 
may not be able to commit until you see the details and the 
language, and I understand that, but generally speaking, if 
there was a new guestworker program, you would understand why 
we would need to have E-Verify apply to it.
    Mr. Conner. Well, again, I do not want to downplay the 
importance of a guestworker program. We appreciate your effort 
to try to make that program workable. It is very unworkable, 
provides less than 7 percent of our labor population in 
agriculture right now.
    But for us, again, we have trained people, in some cases, 
employees on our farms and ranches who have been there for a 
very, very long time, years, if not over 10 years.
    Mr. Smith. I understand all that.
    Mr. Conner. We have to keep those.
    Mr. Smith. Right.
    Mr. Conner. And under the current E-Verify plan, we would 
lose those workers.
    Mr. Smith. I see. So you are concerned about the ones who 
are working now. If we could address that, then that would 
clear the way for you.
    Mr. Conner. Those two points, yes.
    Mr. Smith. Thank you very much, Mr. Conner.
    Thank you, Mr. Chairman.
    Mr. Gowdy. I thank the gentleman from Texas.
    The Chair would now recognize the gentlelady from Texas, 
Ms. Jackson Lee.
    Ms. Jackson Lee. Mr. Conner, I don't know if we can 
piecemeal repair some aspects of what you have spoken about, 
but we all know that the agriculture industry is tantamount to 
a major contributor to the economy. But it is also the 
breadbasket of the United States, of course, but around the 
world. So we are concerned and very interested in making sure 
that we take the right pathway.
    As you well know, although you have been discussed over the 
years, agricultural workers, special carveouts in legislation, 
you were quite well responded to in a comprehensive approach 
when we were talking about comprehensive immigration reform. Do 
you remember that?
    Mr. Conner. Yes.
    Ms. Jackson Lee. And you remember that those efforts were 
made quite strongly on your behalf?
    Mr. Conner. Yes.
    Ms. Jackson Lee. So I want to just ask the question of 
where we are today. Yesterday, we held our first hearing for 
the House Judiciary Committee in the 114th Congress. It was 
interesting to me that out of all people in the world, the 
majority asked two people from the Center for Immigration 
Studies to testify.
    Earlier this week, a policy analyst from the same Center 
for Immigration Studies wrote an opinion piece in The Hill that 
characterizes people who employ undocumented workers as 
lawbreaking employers who want their illegal labor to get work 
permits.
    I ask unanimous consent to enter that article into the 
record.
    Mr. Gowdy. Without objection.
    [The information referred to follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
    Ms. Jackson Lee. Thank you.
    To you, Mr. Conner, considering that a large majority of 
farmworkers are unauthorized to work, 50 percent to 70 percent, 
do you think that the more than 1 million farmers who you 
represent are lawbreakers? Is that a fair characterization of 
the situation they find themselves in? If you would just take 
this other and give me an answer, please.
    One thing about that characterization is that it makes the 
employers seem greedy, purely self-interested. And as much work 
as we have done to improve the quality of life of ag workers, I 
take issue with that assessment.
    Can you talk a little bit about the work that undocumented 
farmworkers do and how farmers think about their workers?
    Mr. Conner. Well, Congresswoman, thank you for the 
question. It is great question.
    I will just tell you, I have spent my entire career, 36 
years, working on agricultural policy in this town. I am just 
passionate about the fact that our farmers absolutely want a 
solution to this problem.
    Are they lawbreakers? Absolutely not. They are collecting 
the proper paperwork from these workers. They are prohibited 
from questioning any information on the paperwork by law, with 
sharp penalties if they do. They are proceeding forward and 
following the intent of the law.
    Now, again, we all acknowledge that paperwork is prone to 
be wrong, at times. That is not the fault of the farmer and the 
people doing the employing in this case.
    Ms. Jackson Lee. So clearly, you would need some major, if 
you will, accommodations for any law that would put more 
burdens on farmers.
    Let me ask another question. You say that the farm jobs are 
not meant for the unskilled. That is my understanding, too. I 
have heard that farmworkers must have proper understanding of 
soil quality, fertilizers, irrigation, and cultivating 
techniques. For example, they need to know how to prune an 
apple tree without damaging it, or how to determine which 
berries are ripe enough to pick, or oranges, or how to pick a 
cucumber before it is too large to be marketable. That looks 
like a lot of skills that are needed.
    Can you provide more information about the necessary skills 
that farmworkers must have? Is this a job that anyone can do? 
And then follow-up, is that why you support legislative reform 
that includes an eventual path to a green card for current 
experienced, unauthorized agricultural workers, which is, 
certainly, a concept of comprehensive immigration reform, Mr. 
Conner?
    Mr. Conner. Again, Congresswoman, thanks for the question. 
It is good. I will just say that, in our view, these workers 
are skilled workers. The work is very, very difficult, 
sometimes involving very, very long days, hot sun, working 
around animals. Working around animals is not something for the 
unskilled. You just do not pull somebody in and throw them 
amongst dairy animals and expect safety and proper care of the 
animals.
    These are skilled workers. We pay them accordingly, as is 
demonstrated by wage rates for average workers that we can 
submit for the record, as well.
    Ms. Jackson Lee. I would appreciate if you would do that. 
Thank you for your answer.
    I would like to ask Mr. Johnson, if I might, Mr. Johnson, 
first of all, I appreciate your accommodation in being 
interested in this legislation and offering suggestions. I do 
recall working very closely with the Chamber over a number of 
years on the idea of comprehensive immigration reform.
    You testified that before being subject to E-Verify, 
agriculture employers must have access to a workable program to 
sponsor lawful workers. This bill contains no provisions 
pertaining to an agricultural visa program, nor does it provide 
an opportunity for current farmworkers to earn legal status. It 
does, however, require that all agricultural employers to use 
E-Verify within 24 months. If the Legal Workforce Act is not 
paired with an agricultural visa reform, and you have heard Mr. 
Conner, the kind of reform reflected in S. 744, H.R. 15, or the 
old ag job compromise, which I have been on this Committee long 
enough to know that plan, will the Chamber still be in a 
position to support it, given the crucialness of those 
provisions for our agricultural industry?
    Mr. Gowdy. The gentlelady's time has expired.
    Mr. Johnson, you may answer the question.
    Mr. Johnson. I think there are several levels in the 
legislative process. If E-Verify went to the floor without an 
ag fix before that or at the same time, what would our position 
be? I am not sure. I think it is incredulous to think that 
would happen.
    But, certainly, I would think, subject to further review at 
the Chamber, that before an E-Verify bill went to the President 
for signature, the ag issue would have to be solved. The 
Chamber would reevaluate its position at that time, if that was 
not going to occur.
    Ms. Jackson Lee. Thank you for noting the defect of the 
legislation and the importance of moving forward on 
comprehensive immigration reform.
    Thank you all for your testimony.
    I yield back, Mr. Chairman.
    Mr. Gowdy. I thank the gentlelady from Texas.
    The Chair will now recognize the gentleman from Idaho, the 
Vice-Chairman of the Subcommittee, Mr. Labrador.
    Mr. Labrador. Thank you, Mr. Chairman.
    Thank you, Mr. Conner, for being here today. As you know, I 
come from an agriculture State. I understand the need that we 
have. I do find it, just as a point of interest, that it seems 
like the Democrats on this panel have no problem with EPA 
regulations when it affects agriculture, have no problem with 
the Waters of the U.S. legislation when it affects agriculture. 
The only time they ever have a problem with regulation and 
agriculture is when we are trying to stop the hiring of illegal 
and undocumented workers.
    I just want to put that out there for the record, because 
all the other stuff that is affecting your industry, they have 
absolutely no concern about it. In fact, they are pushing for 
that kind of legislation and that kind of regulation that has 
an ill and deleterious effect on your industry. But that is not 
what you are here to testify about.
    Are you aware that we passed in the 113th Congress a bill 
out of this Committee that dealt with your needs in 
agriculture, that dealt with hiring the people who are here 
undocumented right now? It added the dairy industry to the H-2 
program, and it created a new system for agriculture to deal 
with their guestworker needs.
    Mr. Conner. Congressman, I am assuming you are referring to 
the guestworker legislation that was considered. As I noted 
with Mr. Smith's comments as well, we appreciate the effort to 
improve the current guestworker program, because it is in great 
need of improvement. It is not used by very many producers out 
there, particularly small producers. They do not have H.R. 
personnel. They do not have lawyers. They cannot afford them. 
They cannot navigate the current system. So we appreciate that 
work.
    But it is not close to being the solution to the problem.
    Mr. Labrador. I understand that you do not think it is 
close, but it was a beginning. It was a first step in trying to 
fix the problem we have with immigration system, especially 
with regard to agriculture.
    Mr. Conner. We appreciate the acknowledgment that the 
guestworker program is in need of improvement.
    Mr. Labrador. Okay. And do you realize that not a single 
Democrat in this Committee voted for that bill?
    Mr. Conner. I was not aware that.
    Mr. Labrador. Okay. So when I sit here and I listen to the 
pontification about how we are not willing to do anything with 
regard to immigration, I want the people to understand that the 
Democrats were not willing to work with us on a step-by-step 
approach.
    This is not your industry, but are you aware that we 
actually passed in the 112th Congress the STEM visa bill that 
would have dealt a lot with the problems that we have with the 
high-tech immigration? Are you aware of that?
    Mr. Conner. Yes, I am aware, sir. Again, I add that we have 
to deal with this in its totality, that is guestworkers, that 
is our----
    Mr. Labrador. So what you are here to testify is that 
unless we do the Senate bill, then it is unacceptable? Is that 
what you are saying?
    Mr. Conner. Well, one without the other really doesn't work 
for American agriculture. We do need a complete solution.
    Mr. Labrador. I agree with you, agree with you a 100 
percent that we need a complete solution.
    Mr. Johnson, are you aware that we in the 112th and 113th 
Congress tried to pass immigration legislation that would have 
dealt with the high-tech immigration needs of the United 
States?
    Mr. Johnson. Yes, out of this Committee, you did pass that.
    Mr. Labrador. And actually, out of the 112th Congress, we 
passed it out of the House, and the Senate would not even take 
it up. And we were told that the President would not accept 
that legislation, because the President believed that it was 
either everything or nothing.
    I think that is the frustration that I have. I agree with 
Mr. Conner that we have to fix entire immigration system. I 
agree that agriculture has some needs that are unique to the 
agricultural industry. But to sit here and pontificate about 
how we have not done anything about immigration is just plain 
false. It is absolutely false.
    We have tried to do a step-by-step approach where we have 
tried to fix the immigration system, and we have been held 
hostage by the President and his party because they are 
unwilling to work on a step-by-step approach. All we are doing 
today, starting with the E-Verify legislation, is fix one of 
the problems that we have in the immigration system.
    I think all of you have testified that it improves the 
current E-Verify system that I have had some problems with in 
the past, as a former immigration practitioner. But I think we 
need to understand that unless we work together, unless we 
realize that we have to do this in a step-by-step way, what we 
are doing is we are allowing the people on the other side of 
the aisle to hold this issue hostage.
    We have not fixed this problem for 30 years, and we have 
not fixed it because it has been an all or nothing approach. In 
fact, the President of the United States, when he was a 
Senator, he promised the Bush administration that he would 
support comprehensive immigration reform. And guess what he 
did? He went to the Senate floor and he voted for poison pill 
amendments that killed the entire Bush immigration process.
    We would have had this problem solved many, many years ago, 
if it were not for this President when he was a Senator. He 
promised the American people that the first thing he would do 
as President was to do comprehensive immigration reform, and 
neither he nor his party did anything to fix the problem.
    So let us just start fixing the problem and let us move on 
with the solutions that Americans are craving.
    Mr. Gowdy. I thank the gentleman from Idaho.
    The Chair would now recognize the gentleman from Puerto 
Rico, the former attorney general, Mr. Pierluisi.
    Mr. Pierluisi. Thank you. Welcome, all. I am particularly 
pleased to see Angelo Amador here. You make me feel proud as a 
fellow Puerto Rican-American. That is great.
    Mr. Conner, I understand that the council didn't endorse 
the ag guestworker bill in the 113th Congress. Is that right?
    Mr. Conner. I am sorry, which bill, sir?
    Mr. Pierluisi. The guestworker bill that was just referred 
to by my colleague Mr. Labrador.
    Mr. Conner. That is correct, sir.
    Mr. Pierluisi. The council didn't endorse that bill?
    Mr. Conner. We did not endorse that bill because it really 
represents only part of the solution that is necessary out 
there, the big part of the solution being our existing 
workforce.
    Mr. Pierluisi. Do you know of any other group of growers or 
ag group that supported the bill?
    Mr. Conner. Not that I am aware of.
    Mr. Pierluisi. Thank you.
    Mr. Amador, in your written statement, you say that you are 
committed to fixing the broken immigration system, which 
includes legalization of a portion of the undocumented 
workforce, and that simply changing the E-Verify system will 
not be enough to fix an immigration system that has been 
collapsing for almost 30 years.
    I agree with you on that point, but can you explain why you 
think that changing the E-Verify system itself is not enough to 
fix our immigration system? Why is it important that any fix to 
our immigration system include provisions that would allow 
undocumented people to earn legal status?
    Mr. Amador. Well, I think one of the bigger issues for us 
is what happens moving forward. I know you have heard about the 
H-2A program, which is for agriculture. There is no such 
program available for low-skilled workers in our industry.
    The last time I saw a workable solution for the guestworker 
program, Senator Kennedy was still alive and George W. Bush was 
President. We cannot wait that long. We have been waiting, and 
we have not seen it from Democrats or Republicans to give us a 
guestworker program to be able to move forward.
    So what we have decided is, if there are good solutions to 
different pieces, we are going to support them. I mean, I 
didn't hear from any Democrat calling my office complaining 
about the fact that we supported deferred action for childhood 
arrivals. That is just one piece. And we said even then, 
``Well, that is just one piece. It only takes care of a very 
small population, children and all that. For those reasons, we 
support it.'' But E-Verify is another piece.
    As more and more of my employers and restaurants are using 
it, they are complaining that, ``Look, I started using it. I 
find somebody. I try to work with this good employee. At the 
end of the day, there is a final nonconfirmation. I have to let 
them go, just to see them go work across the street at another 
restaurant that is not using the program.'' That is just unfair 
competition.
    The government is mandating it. We are opposing the way the 
President mandated E-Verify for Federal contractors. It does 
not have safe harbors. It does not have a number of things.
    We are glad that several years ago, then-Chairman Lamar 
Smith sat with us and sat with others and said, what are the 
problems? So we shouldn't wait another 20 years to fix one 
portion of immigration just because no one seems to be in 
agreement on a guestworker program right now.
    Mr. Pierluisi. Thank you. In your testimony, you also argue 
that employers should be allowed to run potential hires through 
E-Verify and make the job offer conditioned on the final 
verification. Here is my concern about that. We already know 
some employers don't notify employees when they receive a TNC. 
Instead, they just terminate employment, and the employee never 
has the opportunity to contest the TNC and demonstrate 
authorization to work.
    If people could be run through E-Verify before starting 
employment, isn't it likely that even more people would never 
be informed of a TNC, which could be defective or false? They 
would simply be told that the company no longer needs the 
employee for that job. Doing this for a person who hasn't even 
shown up for work seems much simpler than doing it for a person 
who has already joined your workforce. Couldn't this kind of 
prescreening of employees before the date of hire mean many 
more U.S. citizens and work-authorized noncitizens will lose 
job opportunities?
    Mr. Amador. I think from a practical perspective, the 
feedback that we have gotten is you do all of the other 
background checks, even drug checks and all these other things 
you do before the person shows up to work. We are not saying 
that you prescreen before an offer is made. An offer has been 
made and you are being told, we are now going to go do this 
number of things. We are going to check your references, we are 
going to a check E-Verify, whatever it is that you do.
    Being able to do all the other things, and we are not 
saying it shouldn't be legal not to inform the worker. You 
should inform the worker, number one, that you are going to do 
an E-Verify check, and, number two, what comes back. The whole 
idea is to allow this employee to fix it before they show up to 
work.
    Mr. Pierluisi. Thank you so much.
    Mr. Gowdy. I thank the gentleman from Puerto Rico.
    The Chair would recognize the gentleman from Colorado, 
former district attorney, Mr. Buck.
    Mr. Buck. Thank you, Mr. Chair.
    Ms. Blitstein, I have a quick question for you about the 
safe harbor provisions. During a May 22, 2013, hearing before 
this Committee, former ICE Assistant Secretary Julie Myers Wood 
commented that ICE operates under the assumption that the 
existence of a high number of employees who circumvent the 
system through identity theft contradicts a company's argument 
that it relied in good faith on its E-Verify confirmation. 
ICE's position deprives the employer of the E-Verify safe 
harbor under current law, and exposes the company to legal 
liability for failing to detect and deter identity theft, 
notwithstanding its good faith use of E-Verify.
    I have heard these stories from many constituents in my 
district. I am wondering whether this bill fixes that, whether 
you are comfortable with the safe harbor provisions in this 
bill that will be introduced soon?
    Ms. Blitstein. We are comfortable with the safe harbor 
provisions. We do think it will further protect employers.
    In my personal experience at N.C. State is that we have 
used the system to terminate some employees when we have gotten 
a final nonconfirmation. Fortunately, we never had those 
employees come back to us for any reason. But we were, 
certainly, relying on the fact that we were using the system as 
intended. We got that final nonconfirmation result and then 
relied on it to make our employment decision.
    So we do very much feel that the provision in this 
particular bill will be more helpful to employers to go about 
the business of verifying their workforce, making sure they are 
not employing people without authorization, at a more 
comfortable level.
    Mr. Buck. Great. Thank you.
    Mr. Johnson, I have a question for you. The President has 
undermined the immigration system with his executive orders, 
prosecutorial discretion, and his excuse of resource 
allocation. My question is, what prevents the President from 
ignoring this law as he has so many others?
    Mr. Johnson. Well, that is an interesting question based on 
issues of standing and the natural fact that no matter how 
restrictively this body writes a law, there is always going to 
be some discretion written into anything you write.
    Look, you have the power of the purse to rein in the 
President. Of course, the Speaker has filed a case against the 
President under Obamacare.
    Congressman, I am not going to pretend really. At some 
point, you can say we don't trust the President, and do 
nothing, because you aren't going to be able to write a law 
that doesn't depend on some degree of the President exercising 
his discretion. But if you take the position, ``We don't trust 
the President,'' well, the follow-on on that is, ``Well, we may 
as well not do anything in this body.''
    Mr. Buck. That is not what I am suggesting at all. I am 
suggesting there are pieces of this law that require executive 
action. There is a computer system that needs to be set up. 
There are various activities that need to be engaged in, in 
good faith. There are contracts that need to be let to the 
private sector to upgrade the system.
    My question is, in what way do we know that the President 
is going to do these things?
    Mr. Johnson. The only answer is you can't write those more 
restrictively probably than they are already written, because 
they are very detailed administrative functions. Really, the 
answer is strong oversight through this Committee. Of course, 
you are in the majority now.
    Mr. Buck. Would it help if we had timeframes and 
requirements that the Administration report back?
    Mr. Johnson. Administrations, Republican and Democrat, and 
I have been in both, often miss deadlines. Occasionally, they 
meet them. But the real answer to that is your oversight and 
calling the officers up here from the Administrations and 
saying, ``What the heck is going on? You are in charge of this 
law, and you are in charge of the government, why aren't you 
meeting these deadlines?''
    And frankly, you have the blunt instrument of trying to cut 
their budget in some ways to send the signal to them, or use 
Committee report language, which we often did when I was up on 
the Hill, to send a signal to them to get their act together. 
But there is no real clean answer to that. Sorry.
    Mr. Buck. Okay.
    I yield back.
    Mr. Gowdy. The gentleman from Colorado, before we go to the 
gentleman from Texas, we are going to briefly go to the 
gentleman from Puerto Rico.
    Mr. Pierluisi. Mr. Chairman, if there is no objection, I 
would like to introduce in the record a statement from the 
American Immigration Lawyers Association, as well as a letter 
from the American Farm Bureau Federation.
    Mr. Gowdy. Without objection.
    [The information referred to follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                          
                               __________
    Mr. Pierluisi. Thank you.
    Mr. Gowdy. I thank the gentleman from Puerto Rico.
    The Chair would now recognize the gentleman from Texas, the 
former United States Attorney, Mr. Ratcliffe.
    Mr. Ratcliffe. Thank you, Mr. Chairman.
    It is no secret that when ICE opens a worksite enforcement 
matter, it is usually based on information or intelligence that 
there is a workforce of illegal aliens at a particular company. 
One of things that a prosecutor wants to find out early in an 
investigation before making any charging decisions is whether 
the employer had knowledge or reason to believe that illegal 
aliens were, in fact, part of the company's workforce.
    When I was a prosecutor in such cases, and the employer was 
relying solely on the I-9 process, whether an employer was 
subjected to penalties and fines ultimately hinged on 
prosecutorial discretion, namely whether I was persuaded that 
counterfeit documents, sometimes for hundreds of employees, 
could, in fact, be mistaken as genuine or authentic by the 
employer.
    That coupled with the fact that I never had a worksite 
enforcement action against an employer that used E-Verify seems 
to provide anecdotal evidence that E-Verify is a great 
protection for employers. But again, that is anecdotal, so I 
want to get some testimony in that regard.
    And I want start with you, Ms. Blitstein. In the years, as 
I understood your testimony, for 8,000 employees that have gone 
through and been subjected to E-Verify, can you talk briefly 
and hopefully quantify whether there were instances where E-
Verify did in fact identify I-9 process documents that were 
false even though they may have looked valid on their face?
    Ms. Blitstein. Yes. Thank you, Mr. Ratcliffe.
    I would like to say, at least for N.C. State, we actually 
probably at this point, after using the system for 8 years, we 
have probably E-Verified about 30,000 employees over the course 
because usually, when the semester is underway, when you add in 
the additional 8,000 students and other workers, then our 
workforce doubles to 16-plus-thousand during an academic year. 
So over 8 years, people come and go, about 30,000.
    Off the top my head, I can tell you I can remember very 
distinctly two incidents where people presented false green 
cards. One of them was actually very good, and the system came 
back with the final nonconfirmation. We let the person go. I 
studied it for a while and finally was able to see some of the 
flaws. One of the other fake green cards was actually rather 
terrible. So once I got involved at my level and saw it, I knew 
right away. But we let E-Verify just kind of clean up the 
process there. So we have had those two.
    I would have to say that our industry is higher education, 
so we probably have smaller rates of people without 
documentation trying to pass themselves off. We really don't 
experience it to the same degree that I am sure some other 
industries probably do.
    But at this point now we are very reliant on the system 
after 8 years. We are required by the State. We are going to 
keep using it probably indefinitely. But again, the safe harbor 
idea is very attractive for us.
    And in over 30,000, I can remember those two. There might 
be a few others, but I would probably say less than 10 over the 
8 years we have been using it where we actually were dealing 
with something that might be related to fake or false 
documents.
    Mr. Ratcliffe. Okay, thank you. And you mentioned safe 
harbor, and I apologize, I know there has been some testimony. 
I have gone in and out. But, Ms. Blitstein, you offered a 
number of recommendations in your testimony about ways that you 
believe the Legal Workforce Act could be improved, but one of 
them didn't include any changes to the safe harbor provisions. 
Do I take that as an endorsement of the currents safe harbor 
provisions?
    Ms. Blitstein. That is correct. We did not see any 
additional need for improvement, based on what is already in 
the act.
    Mr. Ratcliffe. Okay, thank you.
    Mr. Amador, you already spoke to that issue, so I think I 
am clear on that point. I think you called it the strongest 
language that you had seen thus far with respect to safe 
harbor.
    Mr. Amador. Correct.
    Mr. Ratcliffe. Okay.
    What I am not clear is, Mr. Johnson, have you given 
testimony with respect to that? And if not, on behalf of many 
folks associated with the Chamber, your thoughts on that?
    Mr. Johnson. Well, look, we have had a lot of experts look 
at this language, litigators, before we agreed to it. We think 
it is solid. As more and more individuals and experts look at 
it, there may be a tweak here and there that we can recommend 
to the Committee. But as of right now, we are satisfied with 
it.
    Mr. Ratcliffe. Terrific. Great.
    Thank you, Mr. Chairman. I yield back.
    Mr. Gowdy. I thank the gentleman from Texas.
    The Chair would now recognize himself.
    Mr. Conner, I want to start with you, and I want you to 
deliver this message for me, because it is really, really 
important that this message be delivered. The secretary of 
agriculture in South Carolina is a longtime friend of mine 
named Hugh Weathers, who happens to be a dairy farmer.
    Mr. Conner. He is a good man.
    Mr. Gowdy. He is a good man. He married into the very first 
family that helped me when I ran for district attorney, so if 
anybody is wondering who to blame, it would be the Gramling 
family from South Carolina. They are peach farmers, so I am 
keenly aware of agriculture's interest, and so is our Chairman, 
who is the architect and the author of an agricultural bill, 
which the South Carolina Farm Bureau endorsed last session.
    We necessarily cannot have simultaneous hearings, or at 
least I have not figured out how to have simultaneous hearings, 
so you have to start with one. But I do not want you, and I 
would ask you to take back to the farmers, the fact that we 
started with E-Verify in no way, shape, or form means that we 
are not cognizant of the issues that the agriculture community 
faces.
    So if you would let them know how much we appreciate them, 
and we had to start somewhere. Had we start started with the ag 
bill, then other folks would have been critical of us for going 
in that chronology. So if you could help me get that message to 
your constituency, I would be most grateful to you.
    Mr. Johnson, I know the Chairman asked Mr. Amador, but I 
want to hear from you as an entity that had overall support for 
the Senate immigration bill, but yet had some concerns about 
their E-Verify process. What were those concerns, with 
particularity?
    Mr. Johnson. Well, the safe harbor language is better in 
the House bill. There is a crazy provision in the Senate bill 
that deals with the so-called U visa, which is a narrow visa 
for people who testify in criminal, very egregious kinds of 
cases. It was expanded to cover virtually any kind of workplace 
complaint, which we viewed as an incentive really for somebody 
to come forward and file a complaint against an employer 
because the result of that would be they cannot be deported 
from the country while that event was pending.
    They, frankly, changed the legal authority of the Office of 
Special Counsel over there from enforcing intentional 
discrimination to intentional plus unintentional 
discrimination--i.e., disparate impact, which since I did my 
graduate paper in that area, I was particularly annoyed by. And 
they have a whole matrix of sort of appeals when the tentative 
nonconfirmation comes back that the employee could stay on the 
payroll forever while this mouse trap of appeals was going 
forward.
    And look, Mr. Chairman, there has to be a balance here, but 
there is no perfect answer to a lot of cases. And you have to 
balance giving the employee a chance to correct the records, if 
in fact there is a mistake, which I think Mr. Smith's bill 
does, versus creating a whole matrix of other requirements and 
lawsuits, which our members are not going to just buy into.
    I have a treatise on my desk. It is 2,000 pages long, just 
talking about what employers must comply with under our few 
civil rights law. We have enough litigation. We have enough 
gold mines for plaintiff lawyers without creating more.
    Mr. Gowdy. And correct me if I am wrong, if my memory 
serves, U visas would be utilized by victims of domestic 
violence, hypothetically, in one area so they could come 
forward and cooperate with law enforcement and not have any 
fear of any legal consequence for coming forward. And then that 
was expanded in the Senate version to include labor violations.
    Mr. Johnson. Also workplace disputes.
    Mr. Gowdy. Okay.
    Ms. Blitstein, your written testimony stated that you had 
developed a successful program for handling foreign national 
scholars and graduate students who are coming to the U.S. for 
the first time and, necessarily, do not have a Social Security 
number. What is the process?
    Ms. Blitstein. We have developed a system. Especially with 
our electronic system now, we are able to do the I-9 without 
the Social Security number, because when they first come, they 
have to wait about 10 days after ending the U.S. before they 
are eligible to apply for a number at the Social Security 
Administration.
    So we still do the electronic I-9. It is kind of pending 
until they go to Social Security. When they are able to get 
their number, they come back to us. We enter it, and then it 
gets pushed through to E-Verify. And for that process, the E-
Verify 3-day timeframe is suspended because there is just 
practically no way, and Social Security is not going to turn it 
around that fast either.
    So we have developed that process that we have trained a 
number of our decentralized campus users of the E-Verify system 
on. It is still not perfect, which is why one of our 
suggestions was to allow a little more time, because once the 
Social Security Administration gives the new number to the 
individual, they give it straight to them. They do not notify 
us as the employer when they have issued them the number. So we 
still sometimes need to work with the new employees to make 
sure they come back to us, provide us with that number, so we 
can finish up the process.
    So we are still always searching for ways to improve and to 
make things even better. But that is our current system.
    Mr. Gowdy. Thank you. I inadvertently overlooked, I do not 
know how, Mr. King, when he was here. I want to apologize to 
him and now recognize the gentleman from Iowa for his 5 minutes 
of questioning.
    Mr. King. I thank the Chairman for recognizing me and for 
holding this hearing. And I thank the witnesses for your 
testimony. Having listened to your testimony, a number of 
questions emerge, and I would direct my first one to Mr. 
Johnson.
    That would be, there are limitations written in the bill on 
how an employer might verify an existing employee. Can you 
perhaps explain to this panel why--I will make this assertion. 
If I am an employer and I have an employee tell me that he is 
unlawfully present in the United States and can't legally work, 
but he has slipped through my bookkeeping system, why should I 
not be able to run him through E-Verify and deal with him 
according to the law?
    Mr. Johnson. I think you would be able to deal with him 
under this system. If he slips through because of false paper?
    Mr. King. If I suspected an employee of being unlawfully 
working for me, why wouldn't an employer who had the best 
intentions of complying with the law, which is what Mr. Conner 
said his people do, why couldn't that employer just got a E-
Verify, run the data through E-Verify to see if that employee 
can actually lawfully work?
    Mr. Johnson. Well, I think the bill does provide a process 
by which, if a tentative nonconfirmation comes back, that the 
employee--I think it is right to give the employee a chance 
before he is fired to see whether or not the information is 
wrong when it comes back.
    Mr. King. I agree.
    Mr. Johnson. It is only 10 days under the bill, as I 
recall, and then the employer can fire the employee.
    Mr. King. Let me suggest we are really not quite on point 
here, because the bill has been improved from what it 
originally was a couple years ago, in that now the employer has 
to check everyone either within a geographic area or within a 
work category. I suggest that is an unnecessary limitation, 
although it is an improvement.
    So I would move on from that and thank you for your 
response.
    Also, it has a conditional job offer for an employee, a 
potential employee. That is an improvement in the bill.
    But I am concerned, then, Mr. Johnson, about the preemption 
of the States. My concern has been in the past that if States 
are preempted from enforcement, and I understand in this now 
new version of the bill that they can enforce in parallel with 
and in mirror to the Federal law, but if States are preempted, 
and the Federal Government doesn't enforce, wasn't that one of 
the reasons for preemption in the first place, that if the 
Federal Government doesn't enforce, then we don't have to worry 
about the States doing that, as was the basis of S.B. 1070?
    Mr. Johnson. Well, I have the Section 6 language here in 
front of me on preemption, and it is quite complicated. I would 
say that it still allows the States, even on its most 
restriction reading, Mr. King, it allows the States to check 
whether or not the employer is complying with Federal E-Verify 
rules and regulations, and if not, step in.
    I think it is perhaps a little unclear whether or not the 
State has power beyond simply--not simply. Removing the license 
for the business to operate.
    Mr. King. And also to levy fines.
    Mr. Johnson. And levy fines.
    Mr. King. And retain those fines.
    Mr. Johnson. And retain them.
    So to me, this was a balance that, as I said before, we 
would have preferred a broader preemption, but this does allow 
the States to have a role. It is obviously a smaller one than 
after the Supreme Court's decision in Whiting.
    Mr. King. Thank you, Mr. Johnson. I appreciate it.
    I would like to turn to Mr. Conner. I was interested in the 
percentages that you gave of the different components of 
agriculture, in particular, that could be the potential losses, 
if there was mandatory E-Verify abruptly without time to adjust 
to that.
    Can you tell us how those numbers, those percentage losses, 
were calculated?
    Mr. Conner. Certainly, Congressman King. Those numbers were 
the result of the study by the American Farm Bureau Federation 
and we would be happy to provide that full study with those 
results for the Committee record, if you so choose that.
    Mr. King. Could I ask you to do that and ask if the Chair, 
at his discretion, might forward that onto the Committee 
Members, the Farm Bureau analysis?
    Mr. Gowdy. Yes, sir.
    Mr. King. I thank the Chairman of the Committee for that.
    And you also mentioned that there was as much as a 50 
percent worker rate that would not be in compliance right now. 
Did I hear that correctly?
    Mr. Conner. Yes. We have an existing workforce of about 1.2 
million to 1.4 million, and the estimates of what that 
constitutes is somewhere between 50 percent to 70 percent that 
we believe probably would not have proper work authority in 
this country.
    Mr. King. I am fairly shocked by that, but I would go 
further with these questions and just make this concluding 
statement instead, Mr. Conner. And that is that it appears to 
me over my working life, all of it within sight of cornfields 
and soybean fields and agriculture, as you know, that this 
country has evolved into a high dependency on illegal labor, 
particularly in agriculture.
    I can replay this through my mind's eye on what it would 
look like today if that were not the case, if these 50 States 
were islands unto themselves rather than a continent that 
allowed for a flow of labor.
    And I would just make this point in conclusion. There are 
92,890,000 Americans of working age who are simply not in the 
workforce. And to all employers out there, I would suggest that 
if you need one, you can find one from that list. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Gowdy. I thank the gentleman from Iowa.
    In conclusion, I would ask unanimous consent to enter into 
the record statements from the Society of Human Resource 
Management and the National Federation of Independent Business.
    [The information referred to follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               
                               __________
    Mr. Gowdy. This concludes our hearing today.
    I do want to thank every one of our witnesses for your 
expertise, your collegiality among one another and with the 
Committee, and your cordiality with the same. We have all 
benefited from your expertise, and we thank you.
    Without objection, all Members will have 5 legislative days 
to submit additional written questions for the witnesses or 
additional materials for the record.
    With that, the hearing is adjourned.
    [Whereupon, at 11:43 a.m., the Subcommittee was adjourned.]
    
    
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Material submitted by the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Ranking Member, Subcommittee 
                   on Immigration and Border Security

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                           
                                 [all]
</pre></body></html>
